sums (SQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B Bee fs contact@cocklelegalbriefs.com
St. 1923
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1359

MICHELLE DAWN MURPHY,
Petitioner,
v.
CITY OF TULSA, a municipal corporation,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 3263 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of July, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

whe escent Knee Q. Boos Qudbaw-h, Olle

Notary Public Affiant 3990

 
